Maureen M. McBride
Direct Dial: 610-701-4410
Email: mmcbride@lambmcerlane.com

April 28, 2020

VIA ELECTRONIC FILING
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re: Reilly v. City of Harrisburg, et al. No. 19-983
Dear Sir/Madam:
We represent the City of Harrisburg, Harrisburg City Council, and Eric Papenfuse, in his
official capacity as Mayor of Harrisburg, (collectively, “the City of Harrisburg”) with regard to
the above-referenced matter. The Petition for a Writ of Certiorari was filed on February 3, 2020.
By rule, the City of Harrisburg’s response to the Petition was due on or before March 6, 2020.
On or about February 25, 2020, the City of Harrisburg filed a letter request seeking an
extension of time until April 6, 2020 to file a response to the Petition. On February 28, 2020, this
Court entered an Order granting the extension requested and extending the time for filing from
March 6, 2020 to April 6, 2020. Consistent with Rule 15 of this Court, on April 6, 2020, the City
of Harrisburg filed a Waiver (the “Waiver”) indicating that it did not intend to file a response to
the Petition. On April 17, 2020, the Court directed the City of Harrisburg to file a response (the
“Response Order”).
Pursuant to Rule 30.4 of the United States Supreme Court, the City of Harrisburg
respectfully requests a thirty (30) day extension of time to file a brief in opposition to the Petition
for a Writ of Certiorari.
As set forth above, the City of Harrisburg did not intend to file a response to the Petition.
As it was little more than ten days ago since the Court entered the Response Order, the City of
Harrisburg has not yet completed the significant work that will be required to prepare the response
in opposition to Petitioners’ Petition. Additionally, as with all cities and states, the intervening
coronavirus crisis has caused significant disruption to the day-to-day operations of the City of
Harrisburg.

Clerk of Court
April 28, 2020
Page 2
Moreover, the City of Harrisburg has recently retained the undersigned counsel who will
need to spend significant time reviewing the file and preparing the response.
For the reasons stated above, the City of Harrisburg respectfully requests that the time to
file a response to the Petition in this case be extended 30 days to and including June 17, 2020.
Thank you for your time and attention to the foregoing.
Respectfully submitted,
LAMB McERLANE PC

/s/ Maureen M. McBride

MMM/psk
cc:

Matthew D. Staver, Esquire, E (via electronic mail to mat@lc.org)
Frank J. Lavery, Jr., Esquire (via electronic mail to flavery@laverylaw.com)

